<html>
<title> - U.S. DEPARTMENT OF JUSTICE CIVIL RIGHTS DIVISION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                      U.S. DEPARTMENT OF JUSTICE 
                         CIVIL RIGHTS DIVISION

=======================================================================



                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 26, 2012

                               __________

                           Serial No. 112-150

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
75-312                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                    TRENT FRANKS, Arizona, Chairman

                   MIKE PENCE, Indiana, Vice-Chairman

STEVE CHABOT, Ohio                   JERROLD NADLER, New York
J. RANDY FORBES, Virginia            MIKE QUIGLEY, Illinois
STEVE KING, Iowa                     JOHN CONYERS, Jr., Michigan
JIM JORDAN, Ohio                     ROBERT C. ``BOBBY'' SCOTT, 
                                     Virginia

                     Paul B. Taylor, Chief Counsel

                David Lachmann, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                             JULY 26, 2012

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution...................................................     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution...................................................     3

                                WITNESS

The Honorable Thomas E. Perez, Assistant Attorney General, Civil 
  Rights Division, U.S. Department of Justice
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution...............     5
Material submitted by the Honorable Trent Franks, a 
  Representative in Congress from the State of Arizona, and 
  Chairman, Subcommittee on the Constitution.....................    34

                                APPENDIX
               Material Submitted for the Hearing Record

Post-Hearing Questions submitted to the Honorable Thomas E. 
  Perez, Assistant Attorney General, Civil Rights Division, U.S. 
  Department of Justice..........................................    48


                      U.S. DEPARTMENT OF JUSTICE 

                         CIVIL RIGHTS DIVISION

                              ----------                              


                        THURSDAY, JULY 26, 2012

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:38 a.m., in 
room 2141, Rayburn Office Building, the Honorable Trent Franks 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, Chabot, King, Jordan, 
Nadler, Conyers, and Scott.
    Staff present: (Majority) Dan Huff, Counsel; Sarah Vance, 
Clerk; (Minority) David Lachmann, Subcommittee Staff Director; 
and Veronica Eligan, Professional Staff Member.
    Mr. Franks. Good morning, and we welcome you to this 
Constitution Subcommittee Civil Rights Division oversight 
hearing.
    Without objection the Chair is authorized to declare a 
recess of the Committee at any time.
    Last year marked the 150th anniversary of the Civil War. It 
was a chance not only to reflect on the horror of 
institutionalized slavery, but a reminder to all free people 
never to cast doubt on the humanity of any of our fellow human 
beings. And to take solace in at least the redeeming 
recognition that we fought our bloodiest war to end that 
tragedy.
    Today our soldiers again risk their lives for human freedom 
beyond our borders. As election 2012 nears, the division's 
voting section must ensure that those defending democracy 
abroad can participate in it at home.
    There are approximately two million military voters, many 
in combat zones with limited access to ballots. Accordingly, in 
2009, Congress passed the Military and Overseas Voter 
Empowerment Act, the MOVE Act, which requires States to mail 
absentee ballots to all military voters at least 45 days before 
a Federal election. In an April 18 hearing before this 
Subcommittee, the non-partisan Military Voter Protection 
Projects expert testified that inadequate enforcement of the 
MOVE Act in 2010 disenfranchised thousands of service members.
    This year, it is imperative that the Justice Department 
address violations early, negotiate strong settlements that 
deter repeat offenses, and work with the Defense Department to 
ensure military recruitment centers and bases offer 
opportunities to register or request ballots, as required by 
law.
    Unfortunately, the Justice Department seems unconcerned 
about low registration rates at military recruiting centers, 
even though it has aggressively sued States it thinks registers 
insufficient numbers of people at welfare offices. Similarly, 
it must demand better results from voter assistance offices on 
military installations.
    In North Carolina, there are 110,000 active duty military 
and spouses in the State, but only 1,860 requests for absentee 
ballots have been processed. A hundred and ten thousand active 
duty military spouses, but 1,860 requests for absentee ballots 
have been processed. In Virginia, out of 140,000, there have 
been only 874 requests processed. Either the military voting 
rate averages 1 percent or there is a systemic problem evident 
that almost certainly falls on the Civil Rights Division.
    The Justice Department should also insist on express mail 
where necessary to ensure military ballots are returned in 
time. The voting section regularly imposes far heavier costs on 
jurisdictions, for example, demanding bilingual ballots even 
for naturalized citizens who identify speaking English well. 
The voting section needs to make a first priority of protecting 
service members' right to vote for those who have expressed and 
demonstrate a first priority in protecting all of us.
    Indeed, it is seeking headlines opposing voter ID laws that 
an overwhelming majority of Americans support. The Civil Rights 
Division is so desperate to block these laws, it has 
embarrassed itself in court. DOJ's case against the Texas voter 
ID law is based on data provided by a Democratic data firm, 
whose stated mission is to cater to progressives. It seems 
progressive means Democrat. Then at the trial, the judges 
expressed shock that DOJ forbade its expert from counting 
passports or military IDs in estimating how many Texas voters 
lacked photo ID.
    There is no excuse for failing to accept a government-
issued military ID, and the public deserves an answer for this 
today.
    Further, partisan bias is clear in the division's National 
Voter Registration Act enforcement. It aggressively sues States 
under the NVRA for not registering enough voters at welfare 
offices, but it has not brought a single case to enforce NVRA's 
requirement that States maintain accurate voter lists to fight 
fraud.
    When Florida tried to comply voluntarily by removing non-
citizens from its voter rolls, DOJ rushed to court to stop 
them. DOJ, of course, lost. Over the local NAACP's objections, 
DOJ forced Dayton, Ohio to lower the passing score on its 
police recruitment exam to increase diversity, even though 
Federal law explicitly prohibits altering the results of 
employment-related tests on the basis of race. It appears the 
division is breaking the law.
    Further, the Civil Rights Division reads Section 4(e) of 
the Voting Rights Act as requiring taxpayers to pay for costly 
bilingual ballots, even though the legislative history is clear 
that 4(e) merely exempts voters educated in Puerto Rico from 
once prevalent literacy tests.
    I guess I could go on, but I will stop there and look 
forward to your explanation of why laws do not appear to be 
faithfully executed at DOJ as required by law.
    And with that, I would now yield to the Ranking Member for 
his opening statement.
    Mr. Nadler. I thank the Chairman. Today the Subcommittee 
continues its oversight of the Civil Rights Division of the 
Department of Justice. With the authority to enforce this 
Nation's civil rights laws, the division is the guardian of our 
fundamental values--freedom of religion, the right to be 
treated fairly, the right to cast a vote in a free and fair 
election, the right to a job, the right to a home, the right to 
an education, and with the enactment of the Hate Crimes 
Prevention Act, the right to live one's life free from the 
threat of violent hate crimes.
    It is especially auspicious that we are meeting today on 
the 22nd anniversary of the enactment of the Americans with 
Disabilities Act. That legislation was the result of a 
bipartisan commitment to the rights of the disabled, and I am 
pleased to note the work of the Disability Rights Section in 
making the promise of the ADA a reality.
    As our Subcommittee has documented, the division was deeply 
troubled during the Bush years. As with other parts of the 
Justice Department, career civil rights attorneys were 
routinely overruled on legal matters by political appointees. 
Hiring was illegally politicized. Enforcement was, in some key 
areas, grossly neglected. And morale was as bad at any time 
since the division's establishment. The loss of dedicated 
career staff was alarming.
    President Obama signaled a new era by appointing as 
Assistant Attorney General Tom Perez. He is a career civil 
rights lawyer, and he has been working hard to rebuild a 
division that had lost many of its dedicated career attorneys, 
and that had become dangerously politicized.
    In addition to the historically challenging work of the 
Civil Rights Division, he has been rebuilding a decimated and 
demoralized office, and he has done so while dealing with such 
monumental tasks as the decennial redistricting.
    The division has an important story to tell, and I hope 
that we will have the opportunity to review that work. Whatever 
the politics, the career staff of the Justice Department has 
worked hard to meet the civil rights challenges of today.
    What is most distressing is that some of the same people 
who undermined and discredited the Civil Rights Division while 
they were there have now made a career of making false 
allegations against the division. The allegations all have the 
same subtext, that the division is being used to favor 
minorities to the detriment of Whites. What they really mean is 
that the division is now making an honest effort to enforce in 
an evenhanded manner our civil rights laws, laws which they 
really do not like. It is a Willie Horton campaign pure and 
simple.
    I am especially concerned about efforts around the country 
to rob duly qualified Americans of their right to cast a vote 
in a free and fair election and to have their vote counted. We 
have seen the enactment of various devices having the purpose 
and effect of preventing people from exercising their right to 
vote under the pretext of protecting the integrity of 
elections.
    These efforts are not without precedent in our country. In 
the past, literacy tests, grandfather clauses, and poll taxes 
have been used to keep out of the polls citizens whose voices 
those in power did not particularly want to hear. In our day, 
purges of voter rolls, which include the removal of voters we 
know for a fact are qualified, the requirement of particular 
voter IDs that we know some segments of the population are less 
likely to possess, and other such devices are being implemented 
around the country.
    The pretext, and there is no other word for it, that we are 
interested in preventing fraud has never stood up to scrutiny. 
Even now where a voter ID law is being challenged in 
Pennsylvania, the State has already admitted in court that, and 
I am quoting here, ``There have been no investigations or 
prosecutions of in-person voter fraud in Pennsylvania. The 
parties do not have direct personal knowledge of such 
investigations or prosecutions in other States. The parties are 
not aware of any incidence of in-person voter fraud in 
Pennsylvania, and do not have direct personal knowledge of in-
person voter fraud elsewhere. Pennsylvania will not offer any 
evidence in this action that in-person voter fraud has, in 
fact, occurred in Pennsylvania or elsewhere. The Commonwealth 
will not offer any evidence or argument that in-person voter 
fraud is likely to occur in November 2012 in the absence of the 
voter ID law.''
    I ask unanimous consent to place the July 12, 2012 
stipulation from Vivian Applewhite v. Commonwealth of 
Pennsylvania into the record.
    Mr. Franks. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Nadler. Thank you. So why have the voter ID at all? The 
answer comes from the Pennsylvania House Republican Leader Mike 
Turzai, who recently told the Republican State Committee to 
raucous cheers that voter ID will allow Governor Romney to win 
Pennsylvania. In rattling off a laundry list of accomplishments 
made by the GOP run legislature, he said, ``Voter ID, which is 
going to allow Governor Romney to win the State of 
Pennsylvania, done.'' Can we go to the video, please?
    [Video shown.]
    Mr. Nadler. So I do not think it goes too far to demand the 
Civil Rights Division give close and careful scrutiny to any 
voting changes likely to or intended to disenfranchise votes.
    There is clearly a national strategy to disenfranchise 
voters for partisan political purposes, and it is the most 
widespread and aggressive such campaign since the Jim Crow era. 
If our civil rights laws mean anything, and I know that not all 
Members joined the overwhelming bipartisan majority in voting 
to extend the Voting Rights Act, then it must be that we have 
an obligation to protect the right to vote. Too many Americans 
have given their lives around the world and here at home for us 
to allow it to be taken away.
    I am also concerned about the use of police power in cities 
around the country, including my own city of New York. The 
police must use all the tools available to make our communities 
safe, and I can report that New York's finest do an outstanding 
job under sometimes very difficult circumstances. But they must 
obey the law and the Constitution and respect the rights of the 
communities they are sworn to serve.
    Policies such as NYPD's stop and frisk policy would seem to 
have crossed that line. The vast majority of individuals who 
are stopped have done nothing wrong and are sent on their way. 
These people are also disproportionately from communities of 
color, and those communities now feel that they are under siege 
rather than being protected.
    I know that the Department of Justice just announced a 
historic settlement with the New Orleans Police Department. It 
is very much to the division's credit that it has seen this 
important case through to its resolution. I hope to hear from 
Assistant Attorney General Perez about the division's efforts 
to ensure that those charged with enforcing the law all around 
the country are themselves complying with it.
    I am pleased to join you, Mr. Chairman, in welcoming 
Assistant Attorney General Perez, and I look forward to his 
testimony. Thank you. I yield back.
    Mr. Franks. I thank the gentleman. And without objection, 
other Members' opening statements will be made part of the 
record.
    Assistant Attorney General Thomas Perez is here today to 
testify before the Constitution Subcommittee, and, Mr. Perez, I 
thank you for being here with us this morning.
    Mr. Perez. It is an honor to be here.
    Mr. Franks. Mr. Perez became the Assistant Attorney General 
for the Civil Rights Division on October 8th, 2009. Prior to 
becoming the Assistant Attorney General, he served as the 
Secretary of Maryland's Department of Labor, Licensing, and 
Regulation.
    Mr. Perez has spent his entire career in public service, 
serving as a career prosecutor in the Civil Rights Division, 
and then as a deputy assistant attorney general for the 
division. He went on to serve as director of the Office for 
Civil Rights at the Department of Health and Human Services. In 
addition to his extensive Justice Department service, he has 
also served as special counsel to the late Senator Edward 
Kennedy.
    Mr. Perez is a graduate of the Harvard Law School and holds 
a bachelor's degree from Brown University and a master's in 
public policy from the Kennedy School of Government. He resides 
in Maryland with his wife and 3 children.
    Assistant Attorney General Perez, we look forward to 
hearing your testimony today. And again, I welcome you to the 
hearing.
    Mr. Perez's written statement will be entered into the 
record in its entirety. And I would ask you, Mr. Perez, to 
summarize your testimony in 5 minutes or less. To help you stay 
within that time, there is a timing light on your table. When 
the light switches from green to yellow, you will have 1 minute 
to conclude your testimony, and when the light turns red, it 
signals that your 5 minutes have expired.
    Before I recognize the witness, it is the tradition of this 
Subcommittee that he be sworn. So if you would stand, sir, to 
be sworn.
    [Witness sworn.]
    Mr. Franks. Thank you. Now I recognize Mr. Perez for 5 
minutes, and do not forget that microphone button. Everybody 
has trouble with that.

TESTIMONY OF THE HONORABLE THOMAS E. PEREZ, ASSISTANT ATTORNEY 
   GENERAL, CIVIL RIGHTS DIVISION, U.S. DEPARTMENT OF JUSTICE

    Mr. Perez. Thank you very much, Chairman Franks, Ranking 
Member Nadler, and Members of the Subcommittee. Thank you for 
allowing me to come and testify before this Committee.
    In the year since I last appeared before the Subcommittee, 
the Civil Rights Division has continued our vigorous fair and 
independent enforcement of civil rights law. It is indeed 
fitting that I come to you today on the 22nd anniversary of the 
ADA, a landmark law that represents a bipartisan tradition of 
even-handed civil rights law enforcement. Twenty-two years ago, 
I was proudly working in the Civil Rights Division as a career 
attorney under Attorney General Thornburgh.
    I want to thank the former Chairman of this distinguished 
Committee, Chairman Sensenbrenner of Wisconsin, and his wife's 
unwavering commitment to disability rights. I also commend him 
for his leadership in the most recent reauthorization of the 
Voting Rights Act.
    Civil rights indeed has a strong bipartisan history and 
tradition in this Committee, in this Congress, and across 
America. Thanks to the talented career attorneys, 
professionals, and support staff who work in the division, we 
continue to achieve great successes in protecting the civil 
rights of all individuals. And let me give you a few examples.
    Two days ago in New Orleans, the AG announced the filing of 
a compliant and consent decree in the most sweeping police 
reform case in the department's history. This decree serves as 
a comprehensive blueprint for a sustainable reform, and we are 
handling more cases of this nature than at any time in our 
history.
    In the last Fiscal Year, the division filed hate crime 
charges that resulted in the convictions of 39 defendants, 
which was the largest number in more than a decade. In the last 
4 Fiscal Years, we brought more human trafficking cases than in 
any other 4-year period in the department's history. In the 
last 4 Fiscal Years, our appellate section has filed more 
amicus briefs than any other 4-year period that I am aware of.
    We handled 27 new voting cases in the last Fiscal Year. We 
have never handled more new cases in one Fiscal Year, that is 
until this Fiscal Year, which is not yet done, in which we have 
handled 36 new cases.
    In the last 3 years, we participated in over 40 disability 
matters in 25 States to assist people with disabilities to live 
in community-based settings. We have worked with Republican and 
Democratic governors in Georgia, Virginia, and Delaware to 
dramatically expand opportunities for qualified individuals 
with disabilities to thrive in community-based settings.
    We achieved the department's largest recovery in a sexual 
harassment lawsuit under the Fair Housing Act. In the last 8 
months, the division has resolved the 3 largest residential 
lending discrimination cases in the department's history, 
including a $335 million settlement with Countrywide Financial, 
a $175 million settlement with Wells Fargo, and a $21 million 
settlement with SunTrust Mortgage.
    We reached an agreement with Colorado to provide 
interpreter services in court proceedings for individuals with 
limited English proficiency so they can meaningfully access the 
justice system. We are working with other States on this issue 
as well.
    We have protected the rights of individuals to worship and 
assemble in accordance with their religious beliefs. Just last 
week, we obtained a court order under the Religious Land Use 
and Institutionalized Persons Act, or RLUIPA, directing 
Rutherford County, Tennessee to allow a mosque in the city of 
Murfreesboro to open. A few weeks earlier, a grand jury 
indicted an individual for making a threat against that mosque.
    We aggressively enforce laws that protect the rights of 
service members. Since 2009, we filed 43 cases under the 
Uniform Services Employment and Reemployment Rights Act, 
USERRA, which exceeds the 32 cases filed under the previous 
Administration. And we obtained record relief under the Service 
Members Civil Relief Act for service members who have been 
victims of unlawful foreclosures.
    We protected the voting rights of service members through 
the enforcement of the MOVE Act and the Uniformed and Overseas 
Citizens Absentee Voting Act (UOCAVA). We filed more cases in 
the 2010 election cycle than any other time in the enforcement 
of UOCAVA--14 matters, either lawsuits or settlements. This 
year, we have already filed for more--Alabama, California, 
Wisconsin, and Georgia--for noncompliance with the MOVE Act. 
And we have legislative proposals that we have offered to 
strengthen those protections.
    I am very proud of these accomplishments which represent 
only a small fraction of our work. These cases are about real 
people and communities across this country who have been denied 
access to equal opportunity.
    It is about the students in Anoka-Hennepin School District 
in Minnesota, or South Philadelphia High School, who were 
victims of pervasive bullying. One of the basic rights of every 
parent and student is that their student should be safe in 
school and have a safe, nurturing learning environment. As a 
result of our landmark agreement, these students who have been 
subject to harassment can now feel safe and focus their 
energies on learning.
    It is about helping the worker who was fired after telling 
her employer that it was wrong to deny jobs to U.S. citizens 
and workers with permanent work authorizations and give those 
jobs instead to people with temporary work visas. In some 
cases, we expand opportunity for a few people, while in others 
it may be hundreds, thousands, or even more. In all cases, we 
enforce the fairly, independently, and even-handedly.
    This job is a sacred trust, and I am exceedingly proud of 
the work of the dedicated career professionals in the division. 
We have made great strides in expanding opportunity in a number 
of critical ways. Civil rights, however, remains the unfinished 
business of America, and we will continue to use all the tools 
in our arsenal so that all individuals enjoy the rights 
guaranteed by the Constitution and laws of the United States.
    Thank you for this opportunity to be here, and I look 
forward to your questions.
    [The prepared statement of Mr. Perez follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. Well, thank you, Mr. Perez, and I appreciate 
your testimony.
    I will now begin the questioning by recognizing myself for 
5 minutes.
    Protecting the right of those who protect us to vote seems 
to be something that the American people strongly support. But 
some States consistently fail to get ballots to deployed 
military members in elections, systemically disenfranchising 
military voters, breaking Federal law, and disenfranchising 
again those who protect us.
    In 2010, 14 States had counties that failed to get their 
ballots out to their State's deployed military. New York alone 
failed to meet their agreement deadline for 43,000 military 
voters.
    The settlements DOJ reached with some of these States for 
these violations only perpetuated the problem since they did 
not provide sufficient time for ballots to be received before 
the election and mailed back in time. Worse, Mr. Perez, you 
have opined that ballots filled out after the election, which 
is when many military members receive their ballots under your 
settlements, are invalid, ensuring that their vote is still not 
counted.
    This Administration's settlements continue to 
disenfranchise voters. Is that perhaps because the military 
tends to vote heavily Republican? I would think you would 
suggest not. So what is your staff doing right now in July to 
ensure that all States meet their deadlines for getting 
deployed military voters their ballots in time to count.
    Mr. Perez. Thank you for your question, Mr. Chairman. I 
categorically disagree with your characterization of the work 
that we have done. When the MOVE Act passed in 2009, we 
immediately went to work working with States. And if you look 
at the work that was done in the 2010 cycle, that was the most 
aggressive enforcement of laws protecting military and overseas 
voters in the history of the division.
    There were 14 matters that we brought either through 
lawsuits or through out of court settlements. Some cases, there 
were dozens of people who were deprived. In New York, as you 
correctly point out, there were tens of thousands. It did not 
matter if it were dozens or tens of thousands. Every military 
and overseas voter has the right to receive their ballot in a 
timely fashion, and we were able to get that relief.
    And we continued that work because this year we have 
already filed 4 additional lawsuits, and we will continue to 
aggressively enforce those laws.
    And after the 2010 cycle, we had I think a very productive 
hearing in another Committee of the House in which we debated 
lessons learned from 2010.
    Mr. Franks. So what commitment do you--forgive me. What 
commitment can you give this Subcommittee that you are going to 
take proactive actions against jurisdictions who fail to meet 
their deadlines for getting ballots to the deployed service 
members who request them and who are completely at the mercy of 
the States to receive them? What commitment will you give us?
    Mr. Perez. We have been working very proactively on that 
issue, and we will continue to do so. And we will also work in 
partnership with the FVAP Office, the Voter Assistance Program 
in the Department of Defense, who plays a very important role 
in ensuring that military and overseas voters can exercise 
their right to vote.
    I completely agree with what you said, Mr. Chairman. This 
debate in this country--what we should be doing in this country 
is continuing to have this debate about the soul and the future 
of our Nation.
    And then what we should be doing is making sure that every 
eligible person has that right to vote. And that is why we have 
put so much time into the MOVE Act enforcement, and that is why 
when somebody says, well, someone might be a Republican or a 
Democratic, that is offensive. That is irrelevant. And that 
will never play into the work that we do.
    Mr. Franks. But there is a systemic issue. So let me move 
on here if I can in time here. I am going to read an opening 
paragraph of a Daily Caller article from October 1st, 2011. 
``Top Justice Department officials convened a meeting Wednesday 
where invited Islamist advocates lobbied them for cutbacks in 
terror funding, changes in agent's training manuals, additional 
curbs on investigators, and a legal declaration that U.S. 
citizens' criticism of Islam constitutes racial discrimination. 
'The Department's ``civil rights lawyers'' are top of the line. 
I say this with utter honesty. I know they can come up with a 
way.'"
    To redefine criticism as--I am sorry. ``To redefine 
criticism as discrimination,'' says Sahar Aziz, a female 
Egyptian-American lawyer. You then responded, 'We must continue 
to have the open, and honest, and critical dialogue that you 
saw in the robust debate.' Perez responded in an enthusiastic 
closing speech minutes after Ms. Aziz made her demands at the 
event. 'I sat here the entire time taking notes.' Perez said, 
'I have some very concrete thoughts in the aftermath of this.'"
    What were the concrete thoughts after the meeting with, 
among others, a leader of an unindicted co-conspirator 
organization in the largest terror finance trial in history, 
after hearing a blatantly unconstitutional proposal to destroy 
First Amendment free speech rights of Americans by outlawing 
criticism of a religion? According to the article, no one at 
Justice, including you, objected to this call to abrogate free 
speech.
    You know, Americans would be shocked to learn that their 
Justice officials and unindicted co-conspirators in a terrorism 
trial huddled together to discuss ways to take away Americans' 
freedom of speech. Will you tell us here today--and I apologize 
for having to hurry. Will you tell us here today that this 
Administration's Department of Justice will never again 
entertain or advance a proposal that criminalizes speech 
against any religion?
    Mr. Perez. Sir, I am not familiar with the context that you 
described in the article. I have not seen that article.
    Mr. Franks. You are not familiar with the meeting here at 
all.
    Mr. Perez. Pardon me?
    Mr. Franks. You are not familiar with the meeting that the 
article----
    Mr. Perez. I would need to read the article in order the 
context of the article. What I can tell you is that the 
Department of Justice aggressively enforces all of the civil 
rights laws, including laws that protect religious minorities. 
And we will----
    Mr. Nadler. Point of order, Mr. Chairman.
    Mr. Franks. My time has expired.
    Mr. Nadler. Point of order, Mr. Chairman.
    Mr. Franks. The gentleman will state his point.
    Mr. Nadler. We have not seen that article either, and I 
think it behooves us that before scurrilous accusations are 
made or at least at the same time scurrilous accusations are 
made, we see the article and the context so we know what we are 
talking about.
    Mr. Franks. Fair enough. I would place this in the record 
without objection. The Daily Caller article that we mentioned, 
I will place that in the record without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. And with that, my time has expired. Thank you, 
Mr. Perez.
    Mr. Perez. Thank you, sir.
    Mr. Franks. And I now recognize the Ranking Member.
    Mr. Nadler. Thank you. Mr. Assistant Attorney General, the 
New York Civil Liberties Union conducts an annual analysis of 
the New York Police Department stop and frisk procedures. Last 
year, the NYPD stopped and interrogated over 685,000 times, a 
more than 600 percent increase in street stops since 2002 when 
there were only 97,000 stops.
    Nine out of 10 people stopped were innocent, meaning they 
were neither arrested nor ticketed. About 87 percent of those 
stopped were Black or Latino. Young Black and Latino men were 
the targets of a hugely disproportionate number of stops.
    Last month, a group of community advocates and elected 
officials traveled from New York City to advocate for Federal 
review of these practices. Can we expect some Federal review of 
stop and frisk practices and of their alleged--and I would say 
definite violations and systematic violations--of the civil 
rights of people in New York City? Can we expect some Federal 
review of these practices?
    Mr. Perez. Ranking Member Nadler, we are certainly aware of 
those allegations. I was in New York as recently as a week ago, 
and we have received a number of requests to investigate this 
matter. And we are in the process of reviewing those requests.
    As I think you also know, we have a very active police 
practices program. We have more civil police practices 
investigations that are currently under way than at any time in 
our division's history. I mentioned New Orleans, and we have 
open matters north, south, east, and west.
    Mr. Nadler. I noted you mentioned New Orleans. Last 
December, 34 Members of Congress, myself included, wrote to the 
Department of Justice urging an investigation. And do you have 
any time frame as to when we may hear about that?
    Mr. Perez. It remains under active review. I cannot give 
you a specific response date. Obviously we have a lot of 
components in the department with whom we are consulting.
    Mr. Nadler. All right, thank you. A number of years ago, I 
think it was 4 or 5 years ago, when Mr. Sensenbrenner was 
Chairman of the Committee, we held I do not know, many, many 
hours of public hearings on the question of renewal of the 
Voting Rights Act, and specifically of Section 5 of the Voting 
Rights Act. Some people said, and Congress decided to the 
contrary, that Section 5 was no longer necessary because nobody 
discriminated anymore. States and localities did not 
discriminate. And that Section 5 was unfair in that it only 
covered certain local jurisdictions based on their record of 
discrimination prior to enactment of the Voting Rights Act, and 
did not cover others, and that this was all ancient history and 
of no current relevance.
    I note that there are a number of people saying the same 
thing again. And, of course, after those many hours of 
hearings, we came up with voluminous evidence of current 
discrimination and of current necessity for Section 5. And both 
houses on a bipartisan basis passed a renewal, and President 
Bush signed it.
    Could you comment on the current necessity of Section 5? I 
know there are some pending lawsuits against it. Could you 
comment on the current necessity of it and on the fairness of 
singling out some, but not all, jurisdictions?
    Mr. Perez. Sure. Thank you for your question. And at the 
outset of my testimony, I acknowledged on this anniversary of 
the ADA the important contributions of the former Chair of this 
Committee. As you know, Congressman Sensenbrenner, and I have 
read his testimony in connection with the reauthorization of 
Section 5. And if my memory serves me, he said something like 
it was one of the voluminous records ever developed in his 25 
plus year history in serving in the United States Congress.
    And that record that the Congress so vigorously and 
thoroughly developed is a record that continues to be borne 
out. In short, Section 5 continues to be necessary. I look at 
simply the period of time since last September where we have 
interposed 14 objections, whether in the context of an 
administrative review process or in the context of cases that 
were filed before a three-judge panel. And some cases involved 
statewide. In some cases they involve local jurisdictions. And 
it continues to be necessary.
    And the other thing, Congressman Nadler, that is very 
important to underscore is that not only is it necessary, but 
if there is a jurisdiction that believes that it should no 
longer be----
    Mr. Nadler. They can bail out.
    Mr. Perez. There is a bailout. There have been 36 bailouts, 
I believe, since 1984, 18 of which have been in the last 3 
years.
    Mr. Nadler. Thank you. I just want to have one more 
question before my time expires. Today is the 22nd anniversary 
of the enactment of the ADA, and I applaud the Disability 
Rights Section for its tremendous work toward making the ADA's 
promise of equality in access more of a reality.
    In the past several Congresses, there have been proposals, 
such as H.R. 3356, the so-called Access Act, in this Congress 
that would require a private party to notify a public 
accommodation before bringing a lawsuit under Title 3 of the 
ADA.
    What is the Department of Justice's position in requiring 
pre-suit notification for Title 3, and what would the impact of 
such a law be on compliance with and enforcement of the law, in 
your opinion?
    Mr. Perez. The department's position on that has been that, 
obviously as you correctly point out, we are very committed to 
protecting the rights of people with disabilities. However, in 
those particular cases that are giving rise to that 
legislation, we believe that it would burden people with 
disabilities seeking full access to the courts.
    Title 3 of the ADA is the public accommodation provision, 
and we think that as currently written, it strikes the right 
balance. And so this particular proposal is unnecessary.
    Mr. Nadler. I thank you. I yield back.
    Mr. Franks. And I now yield to Mr. Jordan.
    Mr. Jordan. And I thank the Chairman. I would be happy to 
yield to the Chairman. I have to get another venue.
    Mr. Franks. Thank you, sir.
    Mr. Perez, I apologize. I am trying to beat the clock here. 
And the last question I am afraid that I----
    Mr. Perez. No, not at all.
    Mr. Franks. So let me just recap here on that one. Will you 
tell us here today simply that this Administration's Department 
of Justice will never entertain or advance a proposal that 
criminalizes speech against any religion?
    Mr. Perez. Sir, as I said before, you referenced as context 
for your question an article from----
    Mr. Franks. Well, there is no context on this question. I 
am just asking you----
    Mr. Perez. Well, there actually was.
    Mr. Franks. I am just asking you. Well, all right, let me 
ask a new question. Will you tell us here today that this 
Administration's Department of Justice will never entertain or 
advance a proposal that criminalizes speech against any 
religion?
    Mr. Perez. Well, again, sir----
    Mr. Franks. That is not a hard question.
    Mr. Perez. Well, actually it is a hard question in the 
sense that when you make threats against someone, I am going 
to----
    Mr. Franks. No, I am asking you here today, will you tell 
us here today that this Department of Justice will never 
entertain or advance a proposal to criminalize speech against 
any religion.
    Mr. Perez. Again, sir, if you have a proposal that you are 
considering, we will actively review that proposal and offer 
our----
    Mr. Franks. Okay, here is my proposal. Here is my proposal. 
I am asking you to answer a question. That is my proposal. I am 
proposing that you answer this question. Will you tell us here 
today that this Administration's Department of Justice will 
never entertain or advance a proposal that criminalizes speech 
against any religion?
    Mr. Perez. Again, sir, if you give the context of the 
question----
    Mr. Franks. All right.
    Mr. Nadler. Will the gentleman yield for a second?
    Mr. Perez [continuing]. To conduct the----
    Mr. Franks. I will not yield, but I will let----
    Mr. Nadler. I think we can straighten this out.
    Mr. Franks. I will not yield.
    Mr. Nadler. Well, you are not interested in an answer then.
    Mr. Franks. I have tried to get an answer 4 times.
    Mr. Nadler. I rephrase the question, you may get an answer.
    Mr. Franks. I appreciate that, but I am asking my own 
questions. I will certainly allow you to ask yours.
    Mr. Nadler. If the Chairman is taking a second round, could 
I ask a question then of Mr. Perez?
    Mr. Franks. If we take a second round.
    Mr. Nadler. We just did.
    Mr. Franks. No, we did not. I am yielded time.
    Mr. Nadler. Oh.
    Mr. Franks. Yeah. Anyway, I want to get an answer to a 
fairly basic question here. If the Department of Justice cannot 
even answer the question whether they will entertain or advance 
a proposal that criminalizes speech against any religion, then 
it is pretty late in the day.
    So I am going to change questions here. Mr. Perez, this 
House passed the Federal hate crimes legislation in October of 
2009. How many hate crimes prosecutions has your division 
brought since the passage of the Act 2 years ago?
    Mr. Perez. Since the passage of the Act in 2009, 11 cases 
have been brought involving 38 defendants under the Shepard-
Byrd law. Sixteen have been convicted; 22 are awaiting trial.
    Mr. Franks. All right. That seems to contradict some 
information we got from CRS.
    Mr. Perez. I am happy to work with you to provide you the 
specifics----
    Mr. Franks. Could you give us your report showing the 
numbers of cases and parties and courts for these cases that 
were brought, including ongoing cases with docket numbers and a 
short maybe one paragraph summary of each case?
    Mr. Perez. I would be happy to do so.
    Mr. Franks. And how soon could you get that to us?
    Mr. Perez. We will do it as soon as possible.
    Mr. Franks. Any estimation?
    Mr. Perez. Again, we will do it as soon as possible, sir.
    Mr. Franks. All right. Well, All right. I will just tell 
you that our staff did contact CRS to call DOJ and to get this 
information in advance of this hearing. And the DOJ rep told 
CRS that there were approximately 300 hate crimes cases brought 
in just 2 years, but they refused to give the information to 
CRS. Now this, again, may be correct or incorrect information, 
I do not know. But it is public record, that much I know. And 
they urged us to file a FOIA.
    Now asking Congress conducting oversight or CRS to file a 
FOIA request to get public information seems outrageous to me. 
Do you think this was an appropriate response to that request?
    Mr. Perez. Again, sir, our staff, I am confident, would be 
happy to work with your staff. The Hate Crimes Prevention Act, 
the Shepard-Byrd law, is a critically important law. We welcome 
congressional inquiries about the work we have done. We have 
had many investigations. I have described the number of 
prosecutions. We are very proud of those cases. And we would be 
happy to work with your staff to get you the necessary 
information so that you can make assessments based on the 
facts.
    Mr. Franks. Well, thank you for coming, Mr. Perez, today.
    Mr. Perez. Thank you.
    Mr. Franks. And I will yield now to the Ranking Member of 
the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    Mr. Franks. Good morning.
    Mr. Conyers. And I am very pleased that you are here, Mr. 
Assistant Attorney General. I am going to yield the Ranking 
Member of the Subcommittee, Jerry Nadler, briefly.
    Mr. Nadler. Thank you. I will be very brief. I want to 
rephrase question the Chairman asked a little differently.
    First of all, hate speech and hate crimes are very 
different topics. My question to you is, I assume that the 
department would make a commitment that you are not going to 
offer a proposal to criminalize protected speech, to 
criminalize criticism of religion or of anybody else other than 
in the context of a direct threat.
    Mr. Perez. Right. We will do this work, as we always have, 
in a way that is consistent with the Constitution.
    Mr. Nadler. Which means you cannot criminalize----
    Mr. Perez. Hate speech.
    Mr. Nadler. Hate speech.
    Mr. Perez. Correct. And we have----
    Mr. Nadler. Other than with a direct threat of violence or 
something like that.
    Mr. Perez. And as a matter of fact, our hate crimes laws 
say whoever by force or threat of force intimidates or attempts 
to intimidate someone on the basis of race, color, all the 
protected classes, will----
    Mr. Nadler. So short of intimidation and threats of 
violence and so forth, you are not endorsing a concept that 
says you cannot criminalize--I am sorry. You cannot criticize 
someone's religion or anything else.
    Mr. Perez. We strongly support the First Amendment, and at 
the same time we strongly support the prosecution of people who 
use threats of violence to undermine and tear communities apart 
on racial lines, sexual orientation lines, religious lines.
    Mr. Nadler. Thank you. And I yield back. And I thank the 
gentleman.
    Mr. Conyers. You are welcome. This is an important 
discussion. And in a way, we sort of started off on this rapid 
fire back and forth, and sometimes some of the finer and more 
substantive parts of what we are talking about get lost.
    I would like to talk with you about two areas in the few 
minutes that we have. But for me, Mr. Assistant Attorney 
General, this is an ongoing discussion that we are having. I am 
not racing to get all my questions into you. Your office and 
the whole department have been available to me, and I assume 
other Members of the Committee for whatever purposes that we 
want.
    So this is not a race against the clock to see how many 
questions and answers we can get in in a 5-minute period of 
time, which is a little unrealistic when we are talking 
constitutional rights.
    My two subject matters are the voter protection issues and 
the attempts at the State level on part of a number of States 
about making voting more difficult. And I would like to get 
your impression of what is going on in this climate leading up 
to the important November vote of 2012.
    Could we discuss that a bit, and give me an idea of how 
your part of the department and the whole Department of Justice 
is approaching this subject?
    Mr. Perez. Sure. And, again, our philosophy and our 
approach here has been very straightforward. We want to enforce 
the laws, and we are enforcing the laws. And we are doing in a 
fair and independent way. And I said to the Chair before, there 
is obviously a robust debate in this country, and we welcome 
that debate. That is the essence of democracy.
    And what we think needs to happen is we continue to have 
that debate, and then we make sure that we do our level best at 
the department to ensure that every eligible voter on the first 
Tuesday in November can cast his or her ballot and they have 
access to the ballot. That is why we have done more work than 
ever on behalf of military and overseas voters and will 
continue to aggressively enforce that.
    That is why when the facts call for them, we will interpose 
objections on the voter ID laws in Texas and South Carolina, 
because in our judgment the facts supported them.
    I agree wholeheartedly with the views of former Attorney 
General Mukasey, who talked about voter identification laws and 
said earlier this year, ``The Supreme Court,'' referring to 
Indiana, ``adopted the department's views that voter ID laws 
are not facially unconstitutional. As the Supreme Court held, 
such laws serve several compelling interests, including the 
interest in preventing voter fraud and the interest in 
safeguarding public confidence in representative government. At 
the same time, the Court acknowledged the undeniable fact that 
voter ID laws can burden some citizens' right to vote. It is 
important for States to implement and administer such laws in a 
way that minimizes that possibility. And it is important for 
the department to do its part to guard against this 
possibility. We will not hesitate to use the tools available to 
us, including the Voting Rights Act, if these laws, important 
though they may be, are used improperly to deny the right to 
vote.''
    That is not Attorney General Holder. That was Attorney 
General Mukasey. And I completely and utterly agree with him. 
And that embodies the approach we have taken, Congressman 
Conyers.
    Mr. Conyers. I will continue our discussion outside of this 
important hearing. And I thank you for your coming.
    Mr. Perez. Thank you for your time.
    Mr. Conyers. Thank you, Mr. Chairman.
    Mr. Franks. I thank the gentleman. Mr. Scott, you are now 
recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Perez, in the 1960's in southern States, hospitals were 
routinely segregated, and they were integrated because 
President Johnson conditioned receipt of Medicare and Medicaid 
on a policy of non-discrimination.
    Is the policy of non-discrimination without exception as a 
condition of receiving Federal money still a good idea?
    Mr. Perez. Again, I am very familiar with Title 6, which 
prohibits non-discrimination on the basis of race, color, and 
national origin. And we have a section that aggressively 
enforces Title 6.
    Mr. Scott. What about religious discrimination?
    Mr. Perez. As I think we have discussed before, the 
Administration continues to be committed to ensuring that we 
partner with organizations in ways that are consistent with 
both the laws and our values. And we will continue to evaluate 
issues that arise on a case by case basis.
    Mr. Scott. From 1965 to 2001, there could be no religious 
discrimination when you are receiving and spending Federal 
money. Was that a good idea or a bad idea?
    Mr. Perez. Well, again, we respect the judgments of 
Congress, and we enforce the judgments and the laws and 
regulations that are in place. And so that is the job of the 
Department of Justice.
    Mr. Scott. If Congress had said it is a good idea to be 
able to discriminate, do you agree with that?
    Mr. Perez. Well, again, as I said before, in the context--
and I think we have had this conversation a few times, and we 
will continue to have this conversation--we will continue to 
make sure that we enforce the laws in a manner that is 
consistent with both the Constitution and our values. And we 
will continue to evaluate these questions, and they are 
undoubtedly important questions and challenging questions. And 
we will continue to evaluate how the facts apply to laws in a 
particular context.
    Mr. Scott. If a faith-based organization were running a 
government program, could they have as an articulated policy we 
do not hire Catholics and Jews with the Federal money?
    Mr. Perez. Well, again, we have had many conversations with 
you about anti-discrimination laws. And we have enforced cases 
involving discrimination based on religion in the employment 
context and in other contexts.
    We have a case actually in Arizona that we have brought 
involving discrimination.
    Mr. Scott. I am a little confused. Can an organization have 
as an articulated policy we do not hire Catholics and Jews with 
Federal money?
    Mr. Perez. Again, we are having this conversation with you 
about how to treat the issues of ensuring that we partner with 
faith-based organizations in ways that are consistent with all 
of our laws and all of our values. And we will continue to 
evaluate----
    Mr. Scott. Do the laws that you are enforcing prohibit 
discrimination or allow discrimination with Federal money? I 
mean, could an organization have an articulated policy we do 
not hire Catholics and Jews with Federal money?
    Mr. Perez. Again, every situation is fact specific. We 
have, in fact, prosecuted--or not prosecuted. We have brought 
civil suits in cases involving discrimination based on 
religion, and we will continue to evaluate specific facts of 
particular cases. And if the facts----
    Mr. Scott. Well, I just gave you a fact situation. If a 
faith-based organization is running a Federal program with 
Federal money and has an articulated policy we do not hire 
Catholics and Jews, can they get Federal money?
    Mr. Perez. Well, again, we will evaluate the full context 
of every case that we have, and we will make the appropriate 
judgment. And when the facts demonstrate that there is, in 
fact, discrimination occurring, we will not hesitate to take 
appropriate action. And if you look at the cases----
    Mr. Scott. Is it not true that your policy is that a faith-
based organization can, in fact, have an articulated policy we 
do not hire Catholics and Jews, and still receive Federal 
money?
    Mr. Perez. Well, again, sir, we look at particular 
situations, and we evaluate the specific facts in a particular 
situation, and make the appropriate judgment as to the 
application of the facts to the law in that particular case.
    Mr. Scott. Are you ashamed of saying, yes, they can, in 
fact, discriminate legally with the laws that you are 
enforcing?
    Mr. Perez. Every case is fact specific. Just as when the 
Chairman asked me about threats cases, every threats case is 
very fact specific.
    Mr. Scott. What is the barrier to discrimination by a 
faith-based organization? What law prevents them from 
discriminating?
    Mr. Perez. I am not sure I understand your question.
    Mr. Scott. If a faith-based group is taking Federal money, 
what law can you apply that prevents them from discriminating, 
from having articulated policy we do not hire Catholics and 
Jews?
    Mr. Perez. Well, again, we would have to look at the 
particular circumstances of a specific case to determine 
whether there is either a reg from a department so that an 
agency of that particular office might be able to take a look 
at that, or whether there is a law of more general application.
    Mr. Scott. Thank you, Mr. Chairman. I yield back.
    Mr. Franks. Thank you, Mr. Scott. And I recognize the 
gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I recognize and appreciate the testimony, Mr. Perez. I 
cannot help but reflect back on some dialogue that took place 
in this Committee between a former Member of this Committee 
from New York when he asked along the lines of the gentleman 
from Virginia, is there a particular Christian way to ladle 
soup. And I thought, yes, there is. That is ham and beans soup. 
It is particularly Christian within the context of the 
gentleman from Virginia's. And I know that in the vein that it 
is delivered.
    But I would like to take this to the opening video that you 
viewed that was delivered by Mr. Nadler, another gentleman from 
New York. And the statement that if there is voter ID, then 
Romney wins the presidency. And make this point that what that 
really says is if you have an election that is a legitimate 
election, where you have a higher assurance that the people 
going to the polls actually are American citizens and are 
legitimate voters, then the Republican side of this wins, and 
the Democrat side of this loses. That is how I heard and saw 
that video.
    That is my statement. I am not going to ask you to comment 
on that. But I would ask you to comment on something else that 
we have seen, and that is the video of the young gentleman 
going into the polls in Virginia and asking for the Attorney 
General's ballot. And did you see that video, Mr. Perez?
    Mr. Perez. No, I have not. I read about it in the 
newspaper, but I have not seen the video.
    Mr. King. Does it trouble you?
    Mr. Perez. Again, first of all, I believe it is in the 
District of Columbia. I think the Attorney General lives in the 
District of Columbia. You referenced Virginia.
    Mr. King. I am happily corrected with that detail. Does it 
trouble you that a young man, I think 23 years old, could walk 
in and be offered the ballot of the Attorney General of the 
United States? Does that trouble you?
    Mr. Perez. What is interesting about that is the individual 
did not vote, and really the question presented is, what is the 
extent of voter fraud in the United States? I can tell you, 
Congressman----
    Mr. King. If I could just ask a question. My time is----
    Mr. Perez [continuing]. That in the context of the 
litigation--and I comment too much other than what is in the 
public record--in South Carolina----
    Mr. King. Let me point out that we know why the individual 
did not vote is because he did not want to break the law.
    Mr. Perez. And that is why voter fraud----
    Mr. King. And so my point is that there are a lot of 
individuals out there that do not mind breaking the law. They 
maybe do not even understand it does violate the law. They are 
offered a motor voter sign up here and a little checkbox, are 
you a citizen. Maybe they cannot even read that in English. 
Maybe they cannot even understand it in whatever language it is 
offered in. But it is offered to them, and we are seeing voter 
registration fraud, and we are seeing voter fraud.
    In fact, we know that ACORN admitted to at least 440,000 
false or fraudulent voter registrations. So that is pretty 
prevalent out there, and I cannot imagine that none of those 
440,000 actually went and voted. And we have evidence to the 
contrary.
    So one more point. Do you know Donna Brazile?
    Mr. Perez. I am sorry?
    Mr. King. Do you know Donna Brazile?
    Mr. Perez. I do not know her personally. I know of her.
    Mr. King. You know of her, and know that she was managing 
Al Gore's campaign in the year 2000?
    Mr. Perez. I do not recall that, but----
    Mr. King. I just say that is my recollection. And recall 
this statement when it was pointed out to her that her campaign 
was four and a half points down in the polls. And this is from 
memory, so it could be refined to precision. Her answer to that 
was, I am not worried about being down four and a half points 
in the polls. I can pick up 6 points on the street.
    I happened to think of that when I saw the gentleman from 
New York's video that he put out here. He sees the world from 
an entirely different view than I do, at least on this subject. 
And so we are interested legitimate voters, and I would make 
the point to you that there is a bedrock underneath our 
Constitution, and that is America's confidence in legitimate 
elections. It really is not whether or not we have legitimate 
elections. If they believe they are legitimate elections, then 
they will have confidence in them, and they will accept the 
decisions made by their elected officials with this 
constitutional republic that we have.
    And we have secretaries of state around the country that 
are working to try to clean up the voter registration rolls, 
and they have had great difficulty in getting access to the 
SAVE Act, the Systemic Alien Verification Entitlement, that is 
by law to be provided to them. And they are looking to Justice 
for recommendation, particularly Iowa. And I would ask if you 
are prepared to make that list available to the Secretary of 
State Matt Schultz, who has been working diligently to have 
legitimate voter registration rules in Iowa, as you for a 
recommendation.
    Mr. Perez. As I understand it, DHS is working with the 
Secretary of State. And DHS----
    Mr. King. But asking you for a recommendation. They have 
kicked it off to you. They pass it over to----
    Mr. Perez. No, actually I believe, as I understand the 
program, it is a DHS decision, and DHS will indeed make that 
decision.
    Mr. King. DHS has announced--if you do not mind, the clock 
is running down. But DHS has announced that they are looking 
for guidance from DOJ. Is that not you?
    Mr. Perez. Well, I would love to see that reference that 
they are looking from DOJ. I can tell you that in the State of 
Arizona, we pre-cleared an arrangement, I think 6 years ago, so 
that the State of Arizona is actually making use of the SAVE 
database in their verification process.
    Now, of course, if in the course of making use of that SAVE 
database they do so in a manner that impacts or implicates the 
voting rights laws, then we would step in.
    Mr. King. Okay. But Iowa is not a covered district.
    Mr. Perez. Arizona is, in fact, doing that.
    Mr. King. So could you list any reason that in Iowa that 
does not have a covered district in it, that simply wants to 
use the SAVE list in order to clean up their voter registration 
rolls to provide legitimate elections, can you imagine any 
reason why DOJ would recommend to the Department of Homeland 
Security not to provide that list?
    Mr. Perez. Well, again, as I understand that process, the 
SAVE database, the key thing--and Arizona does that, as I 
understand it--is you have to have the requisite underlying 
data, including alien registration numbers of the individual. 
If you are not collecting the requisite underlying data, then 
the SAVE database will not be helpful. The State of Arizona has 
done it that----
    Mr. King. Could you cite the statute that prohibits that?
    Mr. Perez. Pardon?
    Mr. King. Could you cite the statute that prohibits?
    Mr. Perez. Again, the Department of Homeland Security, sir, 
is the Department that administers the SAVE database.
    Mr. King. I understand, and they look to DOJ for 
recommendations.
    Mr. Perez. Well, again, the Department of Homeland Security 
is the entity that administers that database. And as I 
understand it, if you do not collect the requisite data, then 
the database is useless. Arizona collects the data.
    Mr. Franks. The gentleman can finish the answer. Go ahead. 
You are finished on that?
    Mr. Perez. Yes.
    Mr. Franks. Okay, all right.
    Mr. King. In which case then, Mr. Chairman, I would just 
point out that this has been passed back and forth between DHS 
and DOJ for too long. And it is time to get a resolution to 
this matter. And I would yield back.
    Mr. Franks. I thank the gentleman. And without objection, 
all Members will have 5 legislative days to submit to the Chair 
additional written questions for the witnesses, for the witness 
in this case, which will be forwarded. And we will ask the 
witness to respond as promptly as he can so that the answers 
may be made part of the record.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion in the record.
    And with that, Mr. Perez, thank you and those that have 
attended you today for coming to the hearing. And thank the 
Members and observers.
    And this hearing is now adjourned.
    Mr. Perez. Thank you, Mr. Chairman.
    [Whereupon, at 10:35 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Post-Hearing Questions submitted to the Honorable Thomas E. Perez, 
 Assistant Attorney General, Civil Rights Division, U.S. Department of 
                                Justice*
---------------------------------------------------------------------------
    *The Subcommittee had not received a response to its questions by 
the time this hearing record was submitted for printing on February 4, 
2013.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
